J *

/

No.

Supreme Court, U.S. FILED

70- /OS?

JAN 2 7 2021
OFFICE OF THE CLERK

IN THE

Supreme Court of the United States

ROY HOWARD MURRY
Petitioner
V.
STATE OF WASHINGTON
Respondent

ON PETITION FOR WRIT OF CERTIORARI
TO THE WASHINGTON COURT OF APPEALS, DIVISION III

PETITION FOR WRIT OF CERTIORARI

ROY HOWARD MURRY DOC#396387
WA215
WASHINGTON STATE PENITENTIARY
1313 NORTH 13TH AVENUE
WALLA WALLA, WA 99362
TELEPHONE NUMBER: NONE

RECEIVED
FEB - 3 2021

; ^

..., ...

2

QUESTIONS PRESENTED
The questions presented are:
Was Mr. Murry denied his Sixth Amendment

Right to Counsel and Fourteenth Amendment Due
Process? [When his pro se briefing brought to
the Court of Appeals' attention "legal points"
arguable on their merits and the Court ordered
that these should be briefed by the State only;
while simultaneously refusing to allow Petit­
ioner's counsel to also file supplemental
briefing on the pro se issues.]
When determining how a court of appeals
is required to handle "legal points" which
come to its attention by means other than an
appellant's counsel; does it matter whether
appointed counsel filed an Anders brief or a
merits brief, prior to pro se issues arguable
on their merits being raised by an appellant?

! IV’

m

1 v.

3
PARTIES TO THE PROCEEDINGS
Petitioner ROY MURRY was the Petitioner
in the Washington Court of Appeals, Division
Three and Washington Supreme Court below, and
is the defendant of.

Respondent LAWRENCE

HASKELL is the prosecutor for the County of
Spokane, on behalf of the State of Washington
and was the Respondent in the Washington Court
of Appeals, Division Three and Washington
Supreme Court below.

4
TABLE OF CONTENTS
QUESTIONS PRESENTED .

2

PARTIES TO THE PROCEEDINGS

3

TABLE OF CONTENTS

4

TABLE OF AUTHORITIES

5

PETITION FOR WRIT OF CERTIORARI

7

OPINIONS BELOW .

7

JURISDICTION

7

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED .

8

INTRODUCTION

9

STATEMENT OF THE CASE

10

ARGUMENT

13

REASONS FOR GRANTING THE PETITION

19

CONCLUSION

21

FOOTNOTES .

22

CERTIFICATE OF SERVICE

26

INDEX TO APPENDICIES

27

5
TABLE OF AUTHORITIES CITED
CASES:
Anders v. California, 386 US 738, 87 S.Ct.
1396 (1967)
..................................................
10, 13, 14, 15, 16, 17, 19, Footnote 1
Brady v. Maryland, 373 US 83, 83 S.Ct.
1194 (1963)
........................................

16

Martinez v. Court of Appeals, 528 US 152,
14, 15
120 S.Ct. 684 (2000)
McCoy v. Court of Appeals, 488 US 429
. Footnote 1
(1988)
Penson v. Ohio, 488 US 75, 109 S.Ct. 346
13, 15, 16, 17, Footnote 1
(1988):
Smith v. Robbins, 528 US 259, 120 S.Ct.
.
14, 15, Footnote 1
746 (2000)
State v. Grier, 150 Wn. App. 619; 171 Wri.
.
.
. Footnote 1
2d 17 (2011)
State v. Whitlock, 195 Wn.App. 745; 381
P.3d 1250; 188 Wn.2d 511; 396 P.3d 310
. Footnote 1
(2017)
Strickland v. Washington, 466 US 668, 104
. For.;:': ‘: ..14
S.Ct. 2052 (1984)
United States v. Cronic, 466 US 648, 104
14
S.Ct. 2039 (1984)

6
STATUTES AND RULES:
Washington State Rules for Appellate
Procedure (RAP) 10.10(a) ...
.8, 10, 15, Footnote 1
Washington State Rules for Appellate
Procedure (RAP) 10.10(f) .
.
.
.
. 9, 11, 12, 15, Footnote 1
28 U.S.C. section 1257(a)

7

7
PETITION FOR A WRIT OF CERTIORARI
Petitioner ROY MURRY, respectfully petit­
ions this Court for writ of certiorari to re­
view the judgment of the Court of Appeals,
Division Three, State of Washington, in this
case.
OPINIONS BELOW
The opinion of the highest state court
to review the merits appears at Appendix A to
the petition and is reported. [However, Pet­
itioner currently has no means of obtaining
the exact citation.]
JURISDICTION
A timely petition for rehearing was
thereafter denied on the following date:
November 04., 2020, and a copy of the order
denying rehearing by the Supreme Court of
the State of Washington appears at Appendix
C.
The jurisdiction of this Court is invoked
under 28 U.S.C. section 1257(a).

8
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
UNITED STATES CONSTITUTION, Amendment VI:
"In all criminal prosecutions,
the accused shall enjoy the
right ... to have the Assistance
of Counsel for his defense."
UNITED STATES CONSTITUTION, Amendment XIV,
Section 1:
"... No State shall make or
enforce any law which shall
abridge the privileges or immun­
ities of citizens of the United
States; nor shall any State deprive
any person of life, liberty or
property, without due process of
law; nor deny to any person within
its juridiction the equal protec­
tion of the laws."
WASHINGTON STATE RULES FOR APPELLATE
PROCEDURE (RAP),10.10(a):
"Statement Permitted. In a crim­
inal case on direct appeal, the
defendant may file a pro se state­
ment of additional grounds for re­
view to identify and discuss those
matters related to the decision
under review that the defendant
believes have not been adequately
addressed by the brief filed by the
defendant's counsel."

9

WASHINGTON STATE RULES FOR APPELLATE
PROCEDURE (RAP) 10.10(f):
"Additional Briefing. The appel­
late court may, in the exercise
of its discretion, request addit­
ional briefing from counsel to
address issues raised in the def­
endant pro se statement."
INTRODUCTIONS
Mr. Murry filed an authorized pro se
brief with the Washington Court of Appeals,
Division Three. The Court found that the pro
se issues raised were potentially meritorious
and ordered that additional supplemental brief­
ing was warranted. However, the Court ordered
that only the State should be allowed to file
a supplemental brief on the pro se issues. Mr.
Murry filed a motion specifically asking that
his counsel, or at least himself, be allowed
to file an adversarial supplemental brief or
reply. This motion was explicitly denied. The
Court then proceeded to rule on the merits of
the issues raised ±n-pro se briefing without

10
the benefit of adversarial briefing file by
appointed counsel. Based on this procedure,
the pro se issues were then found to be "without merit."
STATEMENT OF THE CASE
Petitioner appealed his December 14,
2016 conviction by jury trial to the Washington Court of Appeals, Division Three. His
appointed counsel filed a Brief of Appellant
(not an Anders brief) on July 30, 2018. Mr.
Murry later filed a pro se Statement of Additional Grounds (SAG), as is permitted under
the WA State Rules for Appellate Procedure
(RAP) 10.10(a), on or about November 06, 2018.
The State responded to counsel's merits brief
on March 05, 2019 and a reply brief was filed
in early April 2019. Neither addressed any of
the issues raised in the pro se SAG.
On July 23, 2019, the Court of Appeals

11

"panel determined that a supplemental respon­
dent's brief responding to the [SAG] is war­
ranted. RAP 10.10(f)" (emphasis supplied).
Appendix B, 1. In the Opinion later .'.issued by
the Court, this rule is ostensibly interpreted
to mean, "In the event that issues of possible
merit have been identified, the court may re­
quire both counsel to address the SAG issues.
RAP 10.10(f)." (emphasis supplied) Appendix A,
28. [The exact text of the rule is above and
differs slightly, but not materially.]
On September 10, 2019, Mr. Murry filed a
Motion to the Court of Appeals specifically
requesting that either his counsel, or he
personally, be allowed to file adversarial
supplemental or reply briefing on the merits
of the pro se issues the Court had ordered
the State to address.; On September 16, 2019,
the State filed a '’Supplemental Brief of

12

Respondent to the Statement of Additional
Grounds" (SBOR to SAG) on the merits of the
pro se issues, On September 18, 2019, the Court
ruled that Mr. Murry's "request to file a supplemental brief is denied unless or until the
panel ... calls for supplemental briefing from
the appellant. ... Pursuant to RAP 10.10(f)
the court may request additional briefing from
counsel to address issues raised in the [SAG]
which has occurred in the instant case, Therefore, no further action will be taken.
(emphasis supplied) Appendix B, 2.
The Court then proceeded to issue

the

Opinion which stated, "The SAG is without
merit." Appendix A, 28-31. This was done completely without the benefit of adversarial
briefing by counsel appointed to represent
Petitioner.
This Denial of Counsel was presented to
the Washington Supreme Court for discretionary

13
review in the "Supplemental Petition for
Discretionary Review" (SPDR) which Mr. Murry
filed on August 26, 2020; after having motioned
that Court and being authorized to do so. App­
endix D, 1-3. Review was denied. Appendix C.
ARGUMENT
If, after being presented with an Anders
brief , pro se briefing, or briefing on the
merits by counsel for a codefendant, an appellate court "finds any of the legal points
arguable on their merits (and therefore not
frivolous) it must, prior to decision, afford
the indigent the assistance of counsel to
argue the appeal." Anders v. California, 386
US 738, 739-741, 744;; (1967) ; Penson

v. Ohio,

488 US 75, 76, 80, 83-84 (1988). "The Court of
Appeals' determination that arguable issues
were presented by the record, therefore,
created a constitutional imperative that coun­
sel be appointed." Penson, 84. The "[a]ctual

14
or constructive denial of the assistance of
counsel altogether is legally presumed to
result in prejudice." Strickland v. Washing­
ton, 466 US 668, 691-692 (1984). Once "the
process loses its character as a confrontation
between adversaries, the constitutional guar­
antee is violated." United States v. Cronic,
466 US 648, 656-657 (1984)(footnote omitted).
There is no federally established right to pro
se representation on direct appeal; this does
not however, "preclude the States from recog­
nizing such a right under their own constitu­
tions." Martinez v. Court of Appeals, 528 US
152, 120 S.Ct. 684, 692 (2000). States are
free to adopt procedures which "are superior
to, or at least as good as" the Anders method
for "satisfying the requirements of the Cons­
titution for indigent criminal appeals."
Smith v. Robbins, 528 US 259, 120 S.Ct. 746,
759 (2000).

15
The WA Rules for Appellate Procedure (RAP)
10.10(a) allows for pro se briefing of addit­
ional issues by an appellant regardless of
whether theappellant's counsel files an Anders
brief or a brief on the merits. Martinez, 692;
Smith, 759. It is the handling of the pro se
brief (SAG) and the application of RAP 10.10
(f) in this case which is the issue for which
relief is sought. The handling of the SAG in
this case appears to be not only an unconsti­
tutional denial of counsel, but also a drastic
departure from both the Court of Appeals' own
nominal interpretation of RAP 10.10(f) and
precedent. [Footnote 1]
Petitioner contends that: 1) he was faced
with an appellate panel which followed an un­
constitutional review procedure even more
biased and prejudicial than those faced by Mr.
Anders or Mr. Penson; and 2) the factual div­
ergences between Anders, Penson and Mr. Murry's
cases are irrelevant. Regardless of whether an
[Footnote 1 can be found at page 22.]

16
Anders or regular merits brief was filed by
counsel; in each of the three cases, additional
arguable "legal points" (not briefed by app­
ellant's counsel) came to light through pro
se briefing by appellant or that of a codef­
endant's counsel. In each case, the Court of
Appeals was presented with issues "arguable on
their merits" and yet refused to allow the ;
appellant "access to counsel to argue the
appeal." Anders, 739-741, 744; Penson, 75-76,
84; Appendicies: A, 28-31; B, 1-2.
In Mr. Murry's case, he filed a pro se
brief (SAG) which raised 17 additional points
related to 3 classes of error: Brady [v. Mary­
land] violations, Ineffective Assistance of
Trial Counsel [Footnote 2] and Prosecutorial
Misconduct. None of the SAG issues were repetative or parallel to those his counsel briefed.
As outlined above, response and reply briefing
[Footnote 2 can be found at page 24.]

17

on his counsel's issues proceeded as normal.
None of this addressed any of the issues
raised pro se, which the Court later decided
to allow only the State to brief. Mr. Murry
was explicitly prohibited from filing even a
pro se reply brief; something which even Mr.
Anders was permitted to do. Anders, 740. App­
endix B, 2.
The Court of Appeals' Opinion (at 28)
conspicuously omits the fact that the Court
deliberately refused adversarial briefing on
the pro se issues. Rather, by the wording, one
would expect that "both counsel" had filed
briefs on the "issues of possible merit" which
the Court identified and based on this, only
then was the SAG found to be "without merit."
Anders 744; Penson, 80. Mr. Murry contends
that, in lieu of allowing his readily available
and already familiarized "counsel to argue the
appeal"; the Court effectively appointed the

18
State to represent him regarding the pro se
"issues of possible merit." Not surprisingly,
the State proceeded to unequivocally assure
the Court that all of the "issues of possible
merit" which it had felt "warranted" a resp­
onse initially were completely without merit.
In ruling on the SAG claims, the Court's Op­
inion reads as nothing more than a summary of
the State's (in several instances deceptive)
assertions in the SBOR to SAG. Appendix A, 2831; Appendix B, 1. [Footnote 3]
The unconstitutional handling of Mr.
Murry's SAG was presented to the WA Supreme
Court in his Supplemental Petition for Dis­
cretionary Review.(9PDRj 7glO._FiIing of the
SPDR was authorized by motion. Appendix D,
1-3. The WA Supreme Court denied review of
the SPDR as well as counsel's Petition for
Discretionary Review (PDR). Appendix C.
Mr. Murry now petitions the Supreme
[Footnote 3 can be found at page 25.]

19
Court of the United States for Writ of Cert­
iorari to correct the denial of his Sixth Am­
endment Right to Counsel ion direct review,
which is incumbent upon the States under the
Due Process Clause of the Fourteenth Amend­
ment .
REASONS FOR GRANTING THE PETITION
The Right to Counsel was enshrined in the
Bill of Rights and is a fundamental, structural
requirement of any attempt to afford those
accused of a crime with a fair, or at least
adversarial, trial. SCOTUS has long held, this
Right applies to both trial and direct review,
including review of arguably meritorious issues
raised pro se.
It appears the legal principles here are
analogous to cases previously decided. There
are several in which appointed counsel filed
an Anders brief, thenissues "arguable on their
merits" later came tot.the appellate court's
attention by other means. However, the specific

20

situation presented in this case does not
appear to have been addressed yet. Granting
the writ would allow this Court to determine
if the Sixth and Fourteenth Amendment protec­
tions it has previously held to exidt apply
in this slightly different situation.
Additionally, granting the writ as re­
quested would protect not only Mr. Murry, but
also all other persons whose case will come
before this or any other appellate panel who
may feel that prosecutors can offer an adequate
substitute for effective "counsel to argue the
appeal" that has been appointed to represent
only the appellant whose case is before the
court. This is an issue of national concern to
any citizen or resident. Whether innocent or
not, anyone may someday have to file a crim­
inal appeal.

21

CONCLUSION
Mr. Murry seeks that the Supreme Court of
the United States find that the refusal by an
appellate court to allow adversarial briefing
of arguably meritorious pro se issues by an
appellant's counsel, while simultaneously
allowing the State to brief the pro se issues
is a denial of the right to counsel; which
violates the rights protected under the Sixth
and Fourteenth Amendments.
He asks that this Court also specifically
mandate that he be afforded the opportunity to
have his direct appeal heard after he has been
afforded appointed counsel to brief the merits
of the pro se issues raised in his Statement
of Additional Grounds and previously briefed
by the State. He further asks that the State
be explicitly prohibited from filing any add­
itional briefing or amending that which has
already been filed.

22

The petition for a writ of certiorari
should be granted.
A ^

DATED this \

day of FeJprua ru

5

zo^i

____________ •

Respectfully submitted:

Roy Howard Murry
Petitioner, pro se

FOOTNOTES
[Footnote 1]
In its Opinion (Appendix A, 28) the Court
of Appeals outlines thier nominal procedure for
handling pro se SAG issue briefing:
"RAP 10.10(a) authorizes a pro
se statement of grounds that
"the defendant believes have ...
not been adequately addressed
by the brief filed by defend­
ant's counsel." In the event

23

that issues of possible
merit have been identified
the court may require both
counsel to address the SAG
issues. RAP 10.10(f)"
(emphasis supplied)
SCOTUS has reviewed State appellate pro­
cedures before. McCoy v. Court of Appeals,
488 US 429, 430-431, 445 (1988). However,
Petitioner expects that the Rule in question
(RAP 10.10(f)), as written, interpreted and
applied in other WA cases would pass muster.
Smith, 759. [See for example: State v Whitlock,
195 Wn. App. 745, 749; 381 P.3d 1250; 188 Wn.
2d. 511, 518; 396 P.3d 310 (2017) - esp. footnote 3; State v. Grier, 150 Wn.App. 619, 622623, 632-633; 171 Wn.2d 17, 29 (2011).]
Conversely, in Petitioner's case, the
appellate court inexplicably failed to follow
its own nominal interpretation of the word
"counsel" in the actual text of RAP 10.10(f),
as well as that which it (and another div­
ision) had previously followed. Whitlock;
Grier. Petitioner contends that the interpretation of "counsel" as "both counsel" or
even as a singular referring to an appellant's
counsel only, would satisfy "the requirements
of the Constitution for indigent criminal

24

appeals" by providing adversarial briefing.
Smith, 759; Anders, 744; Penson, 80. However,
the interpretation applied here is contray to
any sense of fairness and exhibited extreme
bias in favor of the State.
[Footnote 2]
One example of IAC raised in the SAG (and
better presented in the SPDR) appears to be a
near certain ground for reversal under both WA
State and 9th Circuit caselaw. (Broken Opening
Statement Promises to the Jpry; which unequi­
vocally promised exculpatory, non-cumulative
and more than merely impeaching testimony: by
a defense expert witness, an alibi witness for
the night the crime scene was breached and cell
phone information which corroborates the alibi
witness. All of which defense counsel could
have produced, yet failed to do so.)
The disparity between how Mr. Murry was
able to present this issue in his SAG and his
SPDR, almost two years later, also clearly
(yet uneccessarily) demonstrates the actual
and substantial prejudice which resulted from
the Courtrdf Appeals' refusal to accept brief­
ing by counsel for Mr. Murry.

25
Had Mr. Murry been afforded "assistance
of counsel to argue the appeal" it is likely
this issue could have been properly briefed
in the Court of Appeals and possibly secured
a reversal on direct appeal. Instead, the State
was empowered to claim that the IAC failures
to produced promised evidence were merely the
result of a strategic choice "not to call or
cross examine witnesses" without challenge.
(Except for the ignored citationsto the record
in Mr. Murry's SAG.)
[Footnote 3]
The old ad#age comes to mind: "Two wolves
and a sheep voting on what is for dinner."

26
CERTIFICATE OF SERVICE
The undersigned now certifies that a
true copy of this PETITION FOR WRIT OF
CERTIORARI was served on the following
parties:
State of Washington
Lawrence Haskell, Prosecutor
Spokane County Prosecutor's Office
1100 W. Mallon Ave.
Spokane, WA 99260-2043
by first class, U.S. Mail, this
of p€ibru.a

3

, 2021.

1

day

27
INDEX TO APPENDICIES
Opinion of the Washington
appendix a
State Court of Appeals, Division Three
32 pgs
Documents establishing the
APPENDIX B
appellate court's handling of the issues
raised pro se; the rulings actually being
. 2 pgs
challenged by Petitioner .
Decision of the Washington
APPENDIX C
State Supreme Court Denying Review . 1 pg
Documents establishing the
APPENDIX D
presentation of the claimed denial of the
Right to Counsel on direct review to the
Washington Supreme Court for discretionary
• 3 pgs
review

APPENDIX A
Opinion of the Washington State Court of
32 pgs
Appeals, Division Three.

